<html>
<title> - HOMELAND SECURITY: SECURING STRATEGIC PORTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
              HOMELAND SECURITY: SECURING STRATEGIC PORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2002

                               __________

                           Serial No. 107-216

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003


87-388 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2002....................................     1
Statement of:
    Decker, Raymond, Director, Defense Capabilities and 
      Management Team, U.S. General Accounting Office, 
      accompanied by Joe Kirschbaum, Senior Analyst; and Kenneth 
      Goulden, vice president, Maersk Sealand....................    54
    Privratsky, Major General Kenneth L., Commander, Military 
      Traffic Management Command, Department of Defense; Captain 
      William G. Schubert, Maritime Administrator, Department of 
      Transportation; and Rear Admiral Paul J. Pluta, Assistant 
      Commandant for Marine Safety and Environmental Protection, 
      U.S. Coast Guard, Department of Transportation.............     5
Letters, statements, etc., submitted for the record by:
    Decker, Raymond, Director, Defense Capabilities and 
      Management Team, U.S. General Accounting Office, prepared 
      statement of...............................................    57
    Goulden, Kenneth, vice president, Maersk Sealand, prepared 
      statement of...............................................    73
    Pluta, Rear Admiral Paul J., Assistant Commandant for Marine 
      Safety and Environmental Protection, U.S. Coast Guard, 
      Department of Transportation, prepared statement of........    34
    Privratsky, Major General Kenneth L., Commander, Military 
      Traffic Management Command, Department of Defense, prepared 
      statement of...............................................     7
    Schubert, Captain William G., Maritime Administrator, 
      Department of Transportation, prepared statement of........    24

              HOMELAND SECURITY: SECURING STRATEGIC PORTS

                              ----------                              


                         TUESDAY, JULY 23, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Schrock, 
Tierney, Allen, Watson, and Lynch.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Jason M. Chung, clerk; and 
David Rapallo, minority counsel.
    Mr. Shays. A quorum being present, this hearing of the 
Subcommittee on National Security, Veterans Affairs and 
International Relations entitled, ``Homeland Security: 
Protecting Strategic Ports,'' is called to order. I welcome our 
witnesses and I also welcome our guests.
    This is the first of two hearings the subcommittee will 
convene on port security. Today we examine force protection 
measures and other precautions at the strategic seaports 
through which the bulk of U.S. military personnel and material 
pass in the event of a major mobilization. In 2 weeks, at 
Congressman Putnam's request, the subcommittee will hear 
testimony in Tampa, Florida, on security enhancements at 
critical commercial ports.
    The deadly attacks on the U.S.S. Cole forced the Department 
of Defense to confront vulnerabilities of harbor operations 
abroad and at home. Even before that, the Inter-Agency 
Commission on Crime and Security in U.S. Seaports reported 
widespread, systemic weaknesses in procedures and policies to 
protect military property and personnel at the dock.
    The Commission found security standards lacked consistency. 
Readiness is seldom tested in portwide exercises. Complex, 
unclear lines of authority between multiple Federal agencies, 
State regulators, local governments and private entities all 
but guarantee a fragmented, uncoordinated response to a 
portside attack.
    More recently, the General Accounting Office surveyed a 
number of strategic seaports to assess security, management, 
and coordination. They found weaknesses in threat 
communication, risk mitigation, and resource allocation. Lack 
of end-to-end security planning means some military equipment 
is completely outside DOD control during transit.
    In this war, the front line is here at home. Last century's 
approaches to maritime security will not win the modern battle 
to secure strategic ports.
    Our witnesses today will describe efforts to strengthen 
security planning and force protection at strategic seaports. 
We appreciate their time and the expertise they bring to our 
discussion of these important issues.
    At this time I would recognize Mr. Schrock if he has any 
comment he would like to make.
    Mr. Schrock. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today.
    I represent the Second Congressional District of Virginia, 
which includes Norfolk and Virginia Beach and will eventually 
include Virginia's eastern shore and a portion of Hampton. The 
District I represent boasts 384 military commands, eight major 
bases, including four four-star commands, and the giant Norfolk 
Naval Base.
    Hampton Roads has the best natural deep-water harbor on the 
east coast of the United States. Fifty-foot deep unobstructed 
channels provide easy access and maneuvering room for the 
largest of today's container ships. The port is located just 18 
miles from open sea on a year-round ice-free harbor.
    The strategic location of the Port of Hampton Roads and its 
transportation infrastructure offer steamship lines and 
shippers access to two-thirds of the U.S. population. The Port 
of Hampton Roads transports more intermodal containers to more 
cities than any other port in the United States.
    I have just described one of the most attractive terrorist 
targets in the United States. A ship sailing through Hampton 
Roads steams within a few hundred yards of the Norfolk Naval 
Base, home of the Atlantic Fleet, and Fort Monroe, home of the 
U.S. Army Training and Doctrine Command. Fort Eustis, home of 
the U.S. Transportation Command, is a short distance, a few 
miles up the James River.
    The detonation of a ship-based weapon of mass destruction 
would have disastrous effects on our military and our economy. 
This is a nightmare we cannot allow. How are we going to 
prevent this scenario? Specifically, how are we going to keep 
these very lethal threats from endangering our ports of 
embarkation and military bases? That's what I'm hoping we can 
discuss today.
    Every time I cross over the Hampton Roads Bridge Tunnel, as 
I did yesterday coming here, I think ``what if,'' and the what-
ifs scare me to death. Fortunately, I am starting to see signs 
of detectors on the bridge now, and that made me feel better 
than I have felt in a long time, but I know a lot more needs to 
be done, and I'm one who is willing to do anything I can to 
help solve this problem and prevent a disaster. That is my No. 
1 issue in Congress right now--port security. We'll do anything 
to make sure our ports are secure.
    Again, I thank you for being here. I thank you for what 
you're doing. I look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    At this time the Chair would recognize the vice chairman of 
the committee, Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. I thank you for your 
leadership on this issue and your allowing the subcommittee to 
come down to Florida to focus in a second phase of this hearing 
on port security in our area.
    As we focus today on the strategic seaports, these are 
those which offer the most attractive target to terrorists, as 
Mr. Schrock has pointed out, but they also offer what should be 
the most well-defended, well-guarded opportunities for 
terrorists to hit our seaports. I believe that there has been a 
pattern established where terrorists go after our more soft 
targets.
    But it is disconcerting to note, as the GAO did, that even 
at these strategic seaports, which should be the best-defended, 
which should be the most well-guarded, there is no 
comprehensive process to mitigate vulnerabilities or prioritize 
resource distribution, no comprehensive mechanism for 
developing and communicating threat information, no mechanism 
in place to assess and communicate comprehensive threat 
information across agencies.
    This is a recurring theme in our entire homeland defense 
and our entire national security strategy. Nobody is talking to 
anyone. There is no communication at any level. That, to me, is 
the most disturbing part of this entire GAO report and its 
entire discussion about homeland security.
    While I, along with a lot of others, have pinned our hopes 
that the creation of a new department is going to improve 
communication and improve coordination, the bottom line is 
nobody is talking to each other now and we can only hope that 
they will begin to talk to each other in the future.
    As we evaluate those threats of bio-terror release in one 
of the ports that would make incoming ships impossible to 
disembark in these ports and make the outgoing ships from the 
ports impossible to leave through quarantine or some other 
purpose; as we evaluate the threats of destroying a ship and 
clogging up the shipping panels; as we evaluate the patchwork 
of agencies--local, State, and Federal, Coast Guard and DOD--
that share responsibility for these seaways, it becomes more 
and more clear that we have not adequately analyzed the threats 
that face our borders.
    I look forward to the testimony today, and I thank the 
chairman for his leadership on this issue.
    Mr. Shays. Thank you.
    At this time the Chair recognizes Mr. Gilman, welcomes him. 
We welcome him and will hear his statement now if he would like 
to make one.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. You always come prepared, sir.
    Mr. Gilman. I thank you for holding this important and 
timely hearing. Due to events of September 11th and the attack 
on our U.S.S. Cole in Yemen, it has become increasingly clear 
that port security is an integral component within the broader 
context of our Nation's security and deserves much more 
attention than it has received in prior years as we work toward 
the consolidation of our homeland security responsibilities 
under a single Federal department.
    It is imperative that we address this issue of port 
security. According to the GAO report, which is a focus of 
today's hearing, no single entity presently coordinates threat 
information among the myriad local, State, and Federal agencies 
with jurisdiction over our Nation's strategic seaports. 
Moreover, the GAO report asserts that the Department of Defense 
current system of protecting our Nation's military forces and 
equipment as they are deployed throughout our seaports is 
inadequately structured to today's security realities.
    As the war on terrorism evolves, the likelihood that our 
Nation will deploy greater number of troops and equipment by 
way of these seaports is extremely high. Ensuring that our 
troops and equipment are not subject to sabotage, to theft, or 
attack on our own soil is essential. Accordingly, we welcome 
the testimony of today's distinguished panelists and hope that 
these participants can address the most critical issues 
regarding port security and the deployment of our Nation's 
military personnel and equipment through these vital seaports.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Before I recognize our witnesses, I will take care of some 
housekeeping here and ask unanimous consent that all members of 
the subcommittee be permitted to place an opening statement in 
the record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    At this time I will recognize our first panel. We have 
General Kenneth Privratsky, Commander, Military Traffic 
Management Command, Department of Defense; Captain William G. 
Schubert, Maritime Administrator, Department of Transportation; 
and we have Admiral Paul J. Pluta, Assistant Commandant for 
Marine Safety and Environmental Protection, U.S. Coast Guard, 
Department of Defense [sic], hopefully soon to be the 
Department of Homeland Security.
    I would invite the witnesses to stand so I can swear you 
in, and then we will begin to hear your testimony.
    [Witnesses sworn.]
    Mr. Shays. We note for the record all three of our 
witnesses responded in the affirmative.
    We will begin with you, General, and do welcome you here. 
Thank you for coming.

 STATEMENTS OF MAJOR GENERAL KENNETH L. PRIVRATSKY, COMMANDER, 
  MILITARY TRAFFIC MANAGEMENT COMMAND, DEPARTMENT OF DEFENSE; 
CAPTAIN WILLIAM G. SCHUBERT, MARITIME ADMINISTRATOR, DEPARTMENT 
 OF TRANSPORTATION; AND REAR ADMIRAL PAUL J. PLUTA, ASSISTANT 
COMMANDANT FOR MARINE SAFETY AND ENVIRONMENTAL PROTECTION, U.S. 
           COAST GUARD, DEPARTMENT OF TRANSPORTATION

    General Privratsky. Mr. Chairman and members of the 
committee, thank you for the opportunity to speak today on the 
issue of security as it relates to the movement of military 
cargo through strategic seaports. We have been blessed over the 
years with patriotic commercial port owners and operators, a 
robust strategic port infrastructure, excellent civil and 
military cooperation at all levels, and, until the events of 
September 11th, a relatively risk-free homeland. Like others 
appearing today, we in the Military Traffic Management Command 
have been reassessing requirements since that day.
    I have submitted written comments for the record. In this 
opening statement, I would like to give you a sense of our 
ongoing efforts to keep deployments safe.
    There are a significant number of players involved in the 
process of deploying units by sea. Considerable advanced 
planning and coordination is essential. One method used with 
success has been the National Port Readiness Committees. They 
create forums for everyone to understand clearly their roles 
and responsibilities and to surface potential issues or 
threats.
    We in the Military Traffic Management Command also conduct 
extensive planning with deploying units, which includes 
identifying sensitive or hazardous cargos that may present 
special security concerns.
    Because of GAO's assistance a year ago, we have made 
significant progress in safeguarding ammunition shipments to 
the Department of Defense's three ammunition ports. During 
deployments, events follow carefully scripted plans. They do 
not commingle with other commercial port activities. We have 
had lots of opportunity to practice. In the last 18 months, we 
have conducted 62 exercises or deployments, all without 
incident.
    Following September 11th we added much emphasis. We asked 
for and received external assistance in assessing threats both 
at DOD-owned and commercial strategic ports, and we are 
implementing recommendations.
    We in the Military Traffic Management Command are 
instituting a new port terminal risk analysis for use on each 
deployment operation. We also centralized command and control 
of operations at a single location at Ft. Eustis, Virginia, 
under the direction of a one-star general. That was something 
planned to be accomplished by June 2003. After September 11th, 
we accelerated our timeline. We now have a robust 24/7 
operation managing surface transportation worldwide.
    Prior to September 11th we had no significant intelligence 
capability within my command. Now we are adding that and have 
Reservists in our Operation Center in the interim developing 
intelligence. We routinely receive intelligence information 
from the Army military intelligence community and the U.S. 
Transportation Command. We have secure communications with some 
commercial carriers and associations to share information. As a 
result, we are much better prepared to see and communicate 
threats than we were last fall. All of us, however, remain on a 
journey at this point. We have made much progress, but there is 
certainly more that can and should be done. Toward that end, I 
look forward to seeing the results of GAO's examination on 
security measures. We will work hard to make our processes 
better.
    I see positive developments in the legislation currently 
being worked by congressional conferees. Provisions directing 
Department of Transportation to assess the safety of all U.S. 
ports and to prepare anti-terrorism plans are critical. We 
agree with the need to have background checks and security 
identification issued by a central agency. We also are 
interested keenly in those measures that improve cargo 
identification and screening.
    In closing, I would like to commend Congress for taking a 
national approach to port security. I appreciate the 
opportunity to appear before you today and I look forward to 
your questions.
    Mr. Putnam [assuming Chair]. Thank you, General.
    [The prepared statement of General Privratsky follows:]
    [GRAPHIC] [TIFF OMITTED] T7388.001
    
    [GRAPHIC] [TIFF OMITTED] T7388.002
    
    [GRAPHIC] [TIFF OMITTED] T7388.003
    
    [GRAPHIC] [TIFF OMITTED] T7388.004
    
    [GRAPHIC] [TIFF OMITTED] T7388.005
    
    [GRAPHIC] [TIFF OMITTED] T7388.006
    
    [GRAPHIC] [TIFF OMITTED] T7388.007
    
    [GRAPHIC] [TIFF OMITTED] T7388.008
    
    [GRAPHIC] [TIFF OMITTED] T7388.009
    
    [GRAPHIC] [TIFF OMITTED] T7388.010
    
    [GRAPHIC] [TIFF OMITTED] T7388.011
    
    [GRAPHIC] [TIFF OMITTED] T7388.012
    
    [GRAPHIC] [TIFF OMITTED] T7388.013
    
    [GRAPHIC] [TIFF OMITTED] T7388.014
    
    [GRAPHIC] [TIFF OMITTED] T7388.015
    
    Mr. Putnam. Captain Schubert, welcome to the committee.
    Captain Schubert. Good morning. Thank you, Mr. Chairman and 
members of the subcommittee. It is a pleasure to be here with 
you today to discuss the role of strategic commercial ports in 
homeland security.
    The Maritime Administration plays an integral part in the 
deployment of U.S.-flagged vessels carrying military personnel 
and supplies to the theater. During a deployment, the Maritime 
Administration, also known as MARAD, serves to ensure that our 
commercial port facilities are available to the Department of 
Defense for military load-outs. In peacetime, MARAD acts as an 
advocate for our Nation's port community, which is a critical 
component of our economy.
    The emergency operating arm of MARAD, the National Shipping 
Authority, is responsible for the acquisition and operation of 
ships for the defense service and for the coordination of 
shipping and U.S. commerce and the administration of the U.S. 
Government's war risk insurance program. Also, in the event of 
a national emergency, the National Shipping Authority 
administers a program to assure the priority use and allocation 
of commercial port facilities. If this authority is invoked, my 
responsibility is to serve as the director of the National 
Shipping Authority.
    Coordinating port security during mobilization is not new 
to MARAD. It is an issue that we have been addressing for many 
years through the port readiness programs and the National Port 
Readiness Network.
    The National Port Readiness Network has established Port 
Readiness Committees at each of our designated 13 strategic 
commercial ports. The local captain of the U.S. Coast Guard, 
Captain of the Port, are the chairpersons of those committees. 
MARAD chairs both the National Port Readiness Steering and 
Working Groups. These organizations provide coordination and 
cooperation to ensure readiness of commercial ports to support 
force deployment during contingencies and other defense 
emergencies.
    To maintain heightened readiness and performance at 
strategic ports, MARAD assists its National Port Readiness 
Network partners in conducting port readiness assessments, 
monthly readiness status reports, mobilization planning, 
vulnerability assessments, and improving the deployment 
process. We have also partnered with the Defense Threat 
Reduction Agency and other groups in the development of risk 
assessments at our strategic ports.
    MARAD is also concerned with port security because of its 
role in providing strategic sealift to the Department of 
Defense. Through the Voluntary Intermodal Sealift Agreement, 
also known as VISA, and the maritime security program, known as 
MSP, MARAD administers an emergency preparedness program that 
utilizes civilian transportation resources in a defense 
emergency.
    MSP and VISA stem from DOT's authority under the Defense 
Production Act to prioritize sealift capacity for national 
defense purposes.
    Since September 11th, a number of changes have occurred to 
improve port security. Obviously, port security is a major 
concern today, both in Congress and within the administration. 
Secretary Mineta has stated, ``Protecting seaports and port 
facilities against the threat of terrorism is imperative.'' The 
terrorist attacks have resulted in a renewed focus of security 
of our transportation systems, and we at the Department of 
Transportation are aggressively meeting these challenges on 
several fronts.
    Congress is to be commended for its swift action in passing 
the Department of Defense Appropriations Act for fiscal year 
2002, which included port security grant funding. From this 
supplemental appropriation, DOT was able to award 77 port 
security grants, totaling $92.3 million, including $38.1 
million for our 13 strategic ports. That's roughly 41 percent 
of the total. These funds will be used to enhance facilities 
and operational security, provide for security assessments, and 
explore the use of new technology to improve maritime security.
    As you know, port security legislation currently awaits 
action by the congressional conferees. Although neither bill 
has specifically addressed port security during a period of 
mobilization, the security measures that will flow from the 
passage of this legislation will certainly enhance security 
throughout the port system.
    Since September 11th, MARAD has also focused on providing 
port security training and implementation of technology to 
improve security. In August of this year the U.S. Merchant 
Marine Academy's Global Maritime and Transportation School, 
which is administered by MARAD, will conduct security training 
for the State of Florida law enforcement officials.
    On the international level, DOT and MARAD are working with 
the International Labor Organization, or ILO, to implement 
smart card technology to provide a reliable, secure mariner 
identification system in order to track employment records, 
minimize fraudulent documentation, and facilitate access to 
secure areas. A uniform and verifiable transportation worker 
identification card could facilitate the smooth flow of 
commerce and also promote security. Other technological 
innovations include cargo and container tracking systems and 
electronic container seals.
    In conclusion, I have every confidence that the Port 
Readiness Network--this is due to my personal experience during 
Desert Storm/Desert Shield. In 1991, when I was based in 
Houston working for MARAD I was involved with the Port of 
Houston's day-to-day deployment activities. I can tell you we 
all pulled together. There was excellent cooperation between 
the Military Traffic Management Command, the Coast Guard and 
MARAD and State and local governments. We all knew our jobs and 
we did them well.
    I would like to make a special mention that the Coast Guard 
performed an outstanding job in providing both shoreside and 
water-based force protection. We were able to secure our work 
area, credential dock workers, and load ships bound for the war 
zone without any serious disruption in commercial service. We 
were determined then and we are determined now.
    I want to thank the chairman and members of this committee 
for the opportunity to address you here today, and I look 
forward to working with you on this vitally important issue in 
the future.
    Mr. Putnam. Thank you, Captain.
    [The prepared statement of Captain Schubert follows:]
    [GRAPHIC] [TIFF OMITTED] T7388.016
    
    [GRAPHIC] [TIFF OMITTED] T7388.017
    
    [GRAPHIC] [TIFF OMITTED] T7388.018
    
    [GRAPHIC] [TIFF OMITTED] T7388.019
    
    [GRAPHIC] [TIFF OMITTED] T7388.020
    
    [GRAPHIC] [TIFF OMITTED] T7388.021
    
    [GRAPHIC] [TIFF OMITTED] T7388.022
    
    [GRAPHIC] [TIFF OMITTED] T7388.023
    
    Mr. Putnam. At this time the Chair recognizes Admiral 
Pluta. Welcome to the subcommittee.
    Admiral Pluta. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and distinguished members of the committee. I 
appreciate the opportunity to be here today to discuss the 
Coast Guard's efforts in protecting our Nation's strategic 
seaports. The Coast Guard, with primary authority from the 
Espionage Act of 1917, and the Magnuson Act of 1950, is the 
lead Federal agency for reducing, preempting, deterring, and 
defending against security threats targeting ports, waterways, 
and the coastal areas of the United States and its territories.
    As a unique instrument of national security, the Coast 
Guard is the only military service with civil law enforcement 
authority, regulatory and safety responsibilities, and Captain 
of the Port authorities. These authorities prompted a 
memorandum of agreement signed in 1995 by the Secretaries of 
Transportation and Defense, the Chief of Naval Operations, and 
the Commandant of the U.S. Coast Guard to provide 
interdepartmental recognition of Coast Guard capabilities in 
support of the national military strategy. The memorandum of 
agreement establishes port operations, security, and defense as 
a mission of the Coast Guard, including the use of Coast Guard 
forces to help provide anti-terrorism force protection from 
military forces in the United States and overseas.
    It is through a well-defined command and control structure 
at the local level and strong partnerships with key public and 
private port stakeholders that the Coast Guard is able to 
accomplish these missions. Guided by the National Port 
Readiness Network, the Captain of the Port is the lead agency 
responsible for coordinating Federal, State, and local 
resources, as well as private entities in the port region, in 
executing port security responsibilities during any 
mobilization or national defense contingency operation. This is 
accomplished primarily through port readiness, harbor safety, 
and port security committees at the local level.
    As a former Captain of the Port for the strategic ports of 
Wilmington, North Carolina; Morehead City, North Carolina; and 
Southport, North Carolina, I can't emphasize enough the 
importance of a coordinated approach by all maritime players in 
carrying out this critical function of port security, 
especially as the United States continues its overseas military 
operations.
    Additionally, the Captain of the Port could receive 
significant assistance through the passage of pending 
comprehensive port security legislation currently being 
reviewed in conference. Through a well-developed hierarchy of 
port security plans, Federal, State, and local security 
activities and resources will be more effectively aligned in 
addressing our collective homeland security responsibilities.
    The Coast Guard has been working closely with the 
Transportation Command, the Military Sealift Command, the 
Military Traffic Management Command, Department of Navy, and 
the Maritime Administration to identify gaps, validate security 
requirements, and establish a scheduling process for 
coordinating Coast Guard waterside security during priority 
outlooks.
    Another key initiative in closing security gaps has been 
the increased emphasis on vulnerability assessments for U.S. 
seaports. Even before the events of September 11th, the Coast 
Guard was actively working with DOD on their methodology for 
identifying port vulnerabilities in strategic seaports.
    Although the principles of port security for strategic 
seaports are built around the prevention of a terrorist event, 
safeguarding our strategic seaports against a broad spectrum of 
threats requires a comprehensive maritime domain awareness. A 
robust maritime domain awareness will provide all leaders with 
the knowledge base needed to frame the optimum policies, 
decisions, and operations to protect our strategic seaports.
    The importance of protecting and supporting the movement of 
military forces and supplies through U.S. seaports is never 
more critical than it is today. Protecting military load-outs 
in the continental United States and its territories is a 
longstanding mission of the Coast Guard that requires a well-
coordinated effort with our Government and industry partners. 
It is incumbent upon our Government agencies and military 
services to balance the resources and meet the challenge of 
protecting our critical military assets and infrastructure.
    Thank you for the opportunity to testify before you today. 
I will be happy to answer any questions that you might have.
    Thank you, Mr. Chairman.
    Mr. Putnam. You're very welcome, Admiral.
    [The prepared statement of Admiral Pluta follows:]
    [GRAPHIC] [TIFF OMITTED] T7388.024
    
    [GRAPHIC] [TIFF OMITTED] T7388.025
    
    [GRAPHIC] [TIFF OMITTED] T7388.026
    
    Mr. Putnam. We appreciate the entire panel being here and 
we thank you for your thoughtful opening statements.
    We have a journal vote pending, so the subcommittee will 
stand in recess for a few moments. We will be back as soon as 
possible. Subcommittee stands in recess.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. My apologies 
to the panel. Our logistics command here in Congress also has 
some systemic problems.
    At this time I would like to recognize Mr. Schrock for any 
questions that he may have.
    Mr. Schrock. Thank you, Mr. Chairman.
    I'm going to emphasize again how important this issue is to 
me. I'm sorry there aren't more Members here because the bad 
guys got us one way before, and I think the next way they are 
going to do it is by sea. I don't like to scream ``fire'' in a 
crowded theater and I'm not Chicken Little with ``the sky is 
falling,'' but, by golly, if we don't address this thing we're 
going to have another September 11th and it is going to be in 
the waters of America. We just have to prevent that.
    This is a broad question, General, but you talked about 
cargo and identification screening. I'm just trying to figure 
out how we solve that. I hear a lot of people say, ``We need to 
make sure when the container ships come to our shores, when 
they are off-loaded they are checked.'' I'm here to tell you 
that's too late. If a ship leaves Alexandria, Egypt, with a 
little weapon on it and it gets behind our carrier piers in 
Norfolk, for instance, and GPS system sets it off, it is too 
late. But how do we do that? I know that's a terrible question 
to ask, but I try to think of that all the time and don't know 
how to do it unless you get all these other countries to agree 
to do something like that. But how do we do that?
    General Privratsky. Sir, I don't think there is a single 
answer to how you do that. I don't think that you can check 
containers adequately at either end of the supply chain and 
make it effective. I think, as we work toward the best 
solutions, we are going to find ourselves leveraging our robust 
technology capabilities, analyzing patterns, analyzing 
shippers, analyzing cargo, analyzing discrepancies related to 
all of that, to use technology to try to identify what we then 
see as being particularly risky, and then applying our cargo 
screening toward that.
    I do not see a future where we will ever be able to screen 
all cargo at either end, or we're going to bring supply chains 
to their knees.
    Mr. Schrock. It would certainly impact commerce. Admiral.
    Admiral Pluta. Thank you, sir. I thought it would be worth 
mentioning, the concepts behind the approach we are taking in 
concert with all the agencies involved with this challenge, and 
I think it is the biggest challenge that we face in the 
security realm, the cargo security part, particularly 
containerized cargo.
    The solution set that we are focusing on is end-to-end 
cargo integrity from the point that the box is loaded to the 
point that it arrives at its destination, and that includes 
having a trusted agent at the loading, having a higher, 
sophisticated kind of locking system and better containers that 
can be interrogated electronically, and have a chain of custody 
as it moves along all the way from its point of loading to the 
point of destination--a lot of information sharing that needs 
to be done, manifesting, proper manifesting of the cargo.
    What helps that is that we are putting into place security 
requirements, both domestically and internationally, for people 
to do cargo security, in particular, better so that we can 
recognize those companies that do security well, have solid 
security plans in place, and do vet them and audit them 
properly, and those people can--we don't need to waste our time 
looking at people who do security well. We can focus on those 
that we know less about. And so it is an incentive program that 
will help us get that job done because of the millions of 
containers that come into our ports. It is a very difficult 
problem.
    Mr. Schrock. I think I heard there were 16,000 containers 
off-loaded in America every single day. That's a lot.
    Admiral, let me followup with you. First of all, let me 
tell you how wonderful I think the Coast Guard is. I mean, 
their mission has not been fully appreciated over the years, 
and I think now we certainly understand how important the 
future role of the Coast Guard is going to be--and that's from 
a guy who wore the Navy uniform for 24 years. You're part of 
our sea services, and I'm really proud of what you do. And I 
want to make sure, if Congress isn't giving you what you need, 
keep coming back and screaming. Jim Loy, Admiral Loy, former 
commandant, was the first head of the services who had the 
courage to stand up and say, ``Congress, enough is enough. 
Unless you give us the funding to do what we need, we can't do 
any more.'' I thought that took a lot of courage, and the 
others fell in line behind him.
    You talk about a coordinated approach. I had a working 
group over in Anacostia, I believe it was--over in Suitland 
several months ago, and had 15 Government agencies there. What 
I found was, you know, I think interoperability, keeping 
agencies being able to talk to one another is very important in 
sharing information, but what I found was that a lot of the 
agencies would love to share some of that information but by 
law they can't, which just makes absolutely no sense to me. Are 
you finding that the case? How do we break that down? I guess 
it's going to have to come from here, most of it, to pass laws 
to get rid of laws so you all can talk to one another. Has that 
been a problem for you all?
    Admiral Pluta. Yes, sir, it has been a big challenge. Ever 
since the President's Commission on Critical Infrastructure 
Protection, we recognized that there would be difficulty 
sharing classified threat information with the people who 
actually own the infrastructure--in large measure, the private 
sector. So the concept that the Presidential decision directors 
put in place was ISACs, they call them--Information Sharing and 
Analysis Centers--so that the FBI, when they get credible 
threat information, can share them through the ISAC right 
directly to the people who need it.
    As we speak, Coast Guard people, FBI people, people from 
the maritime community are putting together an Information 
Sharing and Analysis Center for the maritime mode to get that 
threat information and be able to share it widely. The 
challenge will be to get the security clearances to the people 
who ultimately need that classified information.
    Thank you, sir.
    Mr. Schrock. All right. That's good news.
    Let me just ask one more question, Mr. Chairman, and then I 
will keep quiet.
    Captain, you talked about security assessments, you all 
were doing security assessments. I guess that's a follow-on to 
what I asked the admiral. Are you able to do those in 
conjunction with other agencies, or are there stumbling blocks, 
roadblocks in the way that prevent you from doing that?
    Captain Schubert. The security assessments--there's really 
on two fronts that's being done. The Coast Guard is--and 
Admiral Pluta could address this I more detail--is developing a 
standard to do what we call ``port security assessments.'' 
These are very comprehensive assessments, and there have been 
some that have been done. At least two of the thirteen 
commercial strategic ports have been completed, and there are 
plans ahead to do the rest of them.
    The other security assessments when we talk about it was 
through the port grants that we just--that I just mentioned 
earlier in my opening statement. We have funded out--of the 
$92.3 million, approximately $5 million of that went to help 
ports do their own security assessments, and approximately 
$633,000 of that were security assessments to help fund the 
ports in the 13 strategic ports that had requested money to do 
that. So that's really where we are.
    Admiral, did you want to add anything?
    Admiral Pluta. Sir, the port vulnerability or port security 
assessments, we're planning on hitting all 55 of the strategic 
and economical ports in the United States over the next 3 
years. It is resource-constrained evolution. We hope to get 
eight accomplished this year, and we will have all the 
strategic ports front loaded in that because we weighed heavily 
in that direction.
    Thank you, sir.
    Mr. Schrock. Well, thank you to all. Just know that if 
there is any way I can carry your water and help you with this, 
I'm here all the time to help you with that, and I'm not 
kidding. It is a huge issue for me, and I want to help you in 
any way I can.
    Mr. Putnam. Thank you, Mr. Schrock.
    We'll note for the record that Mr. Allen and Ms. Watson 
have arrived. At this time, the Chair recognizes Mr. Allen for 
7 minutes.
    Mr. Allen. Thank you, Mr. Chairman. I may not need all of 
that.
    I apologize for not being here for your testimony.
    The port in my District, Portland, Maine, is probably not 
going to have a lot of troops moving through it, but I do want 
to ask you, Admiral Pluta, about the Coast Guard's general role 
with respect to ports--port security. I'm thinking, of course, 
of my own. In particular, to what extent is the Coast Guard 
working to develop affiliations with others who are using the 
ports in the ports available to keep their eyes and ear open?
    By way of background, just to give you sort of the setting 
for my question, I was touring. I went out in the harbor, the 
Portland Harbor, the other day with the waterfront director and 
a variety of other people. It is clear that what we're trying 
to do there is, from the local fire fighters on the fire boat, 
to the Coast Guard, to the fishermen, to all the others who are 
out there using the port, there is a sense that we need to use 
all of the people who are using the port for other reasons and 
tie them together somehow to be the eyes and ears in order to 
protect the area. That's separate from the whole issue of 
commercial transportation and containers and so on.
    But I wondered at your level whether you're giving some 
thought to that issue and how you are approaching it.
    Admiral Pluta. Thank you, sir.
    The answer to your question is yes, absolutely. We have 
been working that issue since September 11th. In particular, up 
in your area the First District commander, Admiral Cray, is 
working with the fisheries community. I can't remember the 
specific name of the program, but it is--Coast Watch is the 
name of the program. In particular, working with the fishermen, 
telling them specifically what sorts of suspicious things we 
might be interested in hearing and who to contact--``Here's the 
telephone number, here's the contact point.''
    We have worked not only that up in your area but around the 
country. On the national level, we've entered into memorandum 
of agreement with the American Pilots Association. In large 
measure, the pilots are the first Americans that set foot on a 
foreign-flagged vessel when they come into the United States. 
Also, the National Cargo Bureau, which is the first view of 
cargo that comes into our country. And we published an 800 
number, our own 7-by-24 national response center for people to 
call in for any suspicious activity. We have Port Readiness 
Committees at every port around the country, including 
Portland, where all of the port stakeholders come together to 
discuss security issues.
    So we have tried to--we know that we don't have enough 
resources to do this job ourselves, sir, and so we have reached 
out in large measure to try to help expand our forces.
    Mr. Allen. One more question. Again, it is not the precise 
subject of this hearing, but I have been told that the 
resources of the Coast Guard after September 11th have been 
diverted really to protecting the homeland, and, of course, up 
and down the Maine coast the search and rescue function, the 
sort of watching out for fishing vessels and just being 
available for all of those other tasks has been a real concern. 
How are you now trying to balance your different roles and 
functions, the ones you were focused on before September 11th 
and the new significance of homeland security? How are you sort 
of not giving up the old to take on the new?
    Admiral Pluta. Thank you for that question, sir. It is very 
important to us because we consider that everything we do plays 
a role in national security one way or the other. The security 
of our citizens is equally as important in their day-to-day 
safety, life at sea, as it in the anti-terrorism context. So, 
in simple answer to your question, right after September 11th, 
because no one in the country knew what to expect next, we 
diverted all of our assets to defending our ports, and we spent 
up to--about 58 percent of our operating expenses of our budget 
were directed at maritime security.
    We recognized we couldn't sustain that. We needed to get 
back to fisheries patrol, search and rescue, drug enforcement, 
migrant interdiction, and so over time we migrated those larger 
assets back to those missions, and what the Commandant of the 
Coast Guard established is a multi-year strategy to get us 
sufficient resources to do all of those things.
    We're starting to commission maritime safety and security 
teams--there will be six of them scattered around the country 
initially--so that they could be our domestic surge capability 
should another terrorist event occur so that we wouldn't have 
to divert search and rescue and law enforcement assets to do 
that job.
    But we haven't degraded our capability. We are back to not 
full capacity but near full capacity in those missions, and we 
are working over the multi-year strategy with your help, sir, 
to get back to the point where we can do both for the country.
    Mr. Allen. Admiral, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Putnam. You're very welcome. And we'll note for the 
record that Mr. Tierney from Massachusetts has joined us, and 
the Chair recognizes the chairman of the subcommittee, Mr. 
Shays.
    Mr. Shays. I thank you, Mr. Chairman.
    Admiral Pluta, I was not being facetious when I was saying 
hopefully you will find yourself under not the Department of 
Transportation but the Department of Homeland Security. I am 
intrigued by the sense that I get from your testimony that you 
all feel that coordination is pretty good. Is that an accurate 
statement among all three?
    Admiral Pluta. Not perfect, Mr. Chairman, but certainly 
better than it ever has been.
    Mr. Shays. And, Captain, you nodded your heard, so that's a 
yes?
    Captain Schubert. Yes, I agree with that. Not perfect, but 
we do work well together. And I think what is most important is 
when the balloon went up for the Gulf War, that should be one 
of the best examples of how we can really work together, and we 
did work together very well.
    Mr. Shays. General.
    General Privratsky. Sir, I am cautiously optimistic. There 
is no question that since September 11th that our focus has 
shifted more to security than readiness in port operations, and 
our Port Readiness Committees by name are becoming more and 
more Port Security Committees because of that shift in 
emphasis. In September we just did not view the threats to our 
homeland as we view them today, and so there has definitely 
been a migration of focus toward more security.
    Mr. Shays. Let me make reference to the GAO, who will 
testify later today. They said, ``Uncertainties regarding the 
seaport security environment exist because comprehensive 
assessments of threat, vulnerability, and critical port 
infrastructure functions have not been completed and there's no 
effective mechanism to coordinate and disseminate threat 
information at the seaports.''
    Should I read it again, or did you all hear it? I'd like 
you to respond to that. Why don't we start with you, General?
    General Privratsky. In terms of risk assessments, we have 
had a very systematic number of assessments for ports underway 
over the past several years. Specifically, if we looked at one 
of the ports that garners a lot of my attention, our ammunition 
port at Sunny Point, we had two----
    Mr. Shays. I'm sorry. Sunny Point is which State?
    General Privratsky. North Carolina.
    Mr. Shays. Thank you.
    General Privratsky. It's our high-volume ammunition port. 
We had two threat assessments at that port pre-September 11th 
and after September 11th we had another one conducted by 
Department of Army, and we have implemented recommendations 
from those.
    U.S. Transportation Command has requested the Defense 
Threat Reduction Agency assessment of strategic ports. Four 
have been conducted to date. Others will follow.
    And so I think that there is a thorough assessment. I know 
at that ammunition port I mentioned that we have taken very 
deliberate action after those assessments and we're a lot 
different now than we were in September and we'll be different 
in the future.
    Mr. Shays. Before I leave you, General, let me ask you, you 
responded to the threat assessment. The second part of that 
comment was that critical port infrastructure functions have 
not been completed and there's no effective method to 
coordinate and disseminate threat information at the seaport. 
Take that point about infrastructure not being completed.
    General Privratsky. Well, we have an integrated priority 
list of projects that is managed by the U.S. Transportation 
Command to resource fixes toward strategic ports. I can provide 
a more-detailed answer for the record for you on that.
    Mr. Shays. Let me just stick with you again, General, to 
say in the report from GAO they say, ``We identified two 
significant weaknesses associated with DOD's force protection 
process for deployments through domestic seaports. First, DOD 
lacks a central authority responsible for overseeing, 
coordinating, and executing force protection measures while 
military forces deploy from domestic installations through U.S. 
seaports.'' Can you respond to that?
    General Privratsky. There is no centralized DOD authority 
for controlling that, but port security falls underneath the 
Coast Guard, and that at a local level comes together at the 
Port Readiness Committees, of which my command plays routinely.
    Mr. Shays. Let me just jump then to the Coast Guard. I've 
always gotten the feeling that the Department of Transportation 
considers the Coast Guard somewhat of a step-child, with no 
disrespect to step-children, but, frankly, it hasn't been 
funded properly by Congress. I think we all know that and we've 
known it for a number of years.
    I'll leave with that negative note and I'll come back for a 
second round, Mr. Chairman. My time is up.
    Mr. Putnam. Thank you, Mr. Chairman.
    The Chair recognizes Mr. Watson from California. Mr. 
Watson, do you have questions?
    Ms. Watson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here.
    I have a District that once included the coastline of 
Southern California. However, most of our military 
transportation and so on, our military transferrals, are out of 
the, I think, Stockton Harbor. Maybe some of you are aware.
    My question to anyone who can respond is: how far out does 
the line go? Is there a possibility that the enemy could be 
within, say, a 20-mile radius, a 30-mile radius, and still do 
damage to us? Do we scout out beyond that line for any kind of 
craft that might have mal-intent? Can you just respond in 
general, please?
    Admiral Pluta. Thank you, Ms. Watson. Yes, we have 
jurisdiction. The Coast Guard has jurisdiction out to the 200-
mile exclusive economic zone of our country.
    Ms. Watson. 200 miles.
    Admiral Pluta. We're working on, with Congress' help, 
enabling legislation for us to require automatic identification 
systems for vessels. They will all be required to carry 
transponders which transmit information about their name, their 
flag, last port of call, things such as that.
    We also, because the bad guys will turn it off, we also are 
working with the Department of Defense on surveillance systems 
so that we can cross-check the responder information and be 
able to tell the legitimate traffic from those that may not be. 
And so we do have the jurisdiction, we exercise the 
jurisdiction. We identify 96 hours before a vessel is scheduled 
to arrive at the United States. We will identify whether or not 
they have any suspicious crew members or any problems with 
their cargo, and we will keep them out of port and board them 
with a multi-agency boarding off-shore before we'll ever let 
them in port if we suspect that there might be something amiss.
    So it's not just a port-related focus, although that's very 
important. We're also concerned about the maritime domain 
awareness of knowing which vessels, which cargo, which people 
are coming in the direction of the United States.
    Ms. Watson. Let me go back to a little history. We were all 
stunned by the ``U.S.S. Cole'' incident. As I understand, that 
was supposed to be a craft bringing food to the ship?
    Admiral Pluta. I'm not familiar specifically. I thought it 
might have been an anchor-handling vessel or an anchor-handling 
crew that they thought it was or could have been bringing food. 
In any case, we are concerned about a Cole-type event, and 
particularly working with the U.S. Navy. That's why we identify 
vessels of high interest, and if we suspect that there might be 
a crew member who has a suspect background, we will put Coast 
Guard people on board as that vessel transits in, and we'll put 
Coast Guard vessels alongside to escort it if it is a high-
consequence vessel like a Navy vessel or a cruise ship or 
something like that, so that our escort vessel will be able to 
shoulder away any small boat that may want to come by.
    In the case of Naval vessels, we'll establish a Naval 
vessel protection zone around their assets, and by law people 
that enter that zone will be violating the law and we can 
enforce that against them.
    So yes, we factor in Cole-type incidents. We don't have 
enough assets currently, but with our multi-year budget 
strategy and with what is coming into the Coast Guard and 
what's coming into the Department of Defense, we will be able 
to deal with that threat, as well.
    Ms. Watson. Being a late arrival--and I apologize for 
that--you might have mentioned this, but have you graded and 
rated the ports as to their vulnerability, as to those who are 
at higher risk? And, if so, is there a list available?
    Admiral Pluta. Yes, ma'am. There is a list of strategically 
and economically important ports to the United States that the 
Department of Transportation has focused on in cooperation with 
the Department of Defense, and so we are focusing our attention 
on those 55 of the 361 ports in the United States first.
    Ms. Watson. Are they ranked?
    Admiral Pluta. Yes, ma'am. It's a classified document and 
we can provide that to you in a separate forum.
    Ms. Watson. Yes. I just want to know how many are on the 
west coast, California, if somebody could get that to me.
    Admiral Pluta. Could we get back to you off-line on that, 
ma'am?
    Ms. Watson. Yes. I just want to add that right after 
September 11th we did hold a forum out in California in Los 
Angeles about preparedness and readiness across the board, and 
our big concern was about our Port of Los Angeles, but troop 
movement usually is out of, as I said, the Stockton area, the 
North Bay area.
    I must commend them for, you know, the constant vigilance. 
I would just like to know are we up to par, have we done all 
that we can do, and what kind of risks or vulnerability do we 
face. So if you could get that information to me I can join 
with my colleagues from California to be sure that we see that 
our various military units and those people responsible are 
keeping at this in securing. I'd appreciate that information.
    Admiral Pluta. Thank you, Ms. Watson. We will provide you 
with that list, and with your help over time I think we'll get 
to where we need to be to provide all the protection your ports 
deserve.
    Ms. Watson. We're there.
    Admiral Pluta. Thank you.
    Ms. Watson. Thank you.
    Mr. Putnam. Thank you, Ms. Watson.
    Ms. Watson. Thank you.
    Mr. Putnam. Captain Schubert, as the maritime 
administrator, you are also director of the National Shipping 
Authority, and that position is only mobilized in times of 
emergency; is that correct?
    Captain Schubert. That's correct. The President needs to 
invoke a national emergency or war.
    Mr. Putnam. And when was the last time that was mobilized, 
that occurred?
    Captain Schubert. It is kind of interesting. During Desert 
Storm--the last time it was evoked was probably--I'd have to 
get back to you on exact answer, but I want to reflect back to 
Desert Storm/Desert Shield. During that mobilization we acted 
under the National Port Readiness Network as if it was invoked, 
and we actually did issue one priority order to a ship yard 
under that authority. So I would say that was probably the last 
time it was invoked, because we did invoke or issue a priority 
order to utilize commercial facilities, and it was done once 
during that engagement.
    Mr. Putnam. So it is--but even in that situation it wasn't 
really fully engaged. It was used in that instance; is that a 
fair characterization?
    Captain Schubert. Yes, and there's an interesting reason 
why it wasn't fully engaged. Again, I'll relate to the Port of 
Houston, which was the second-largest load-out port. In that 
instance, the MTMC and MARAD worked very closely together as to 
what the requirements are.
    Our role is to make sure that, when we go in and prioritize 
and allocate public resources, that it does not disrupt 
commerce to--has the least impact on the disruption of normal 
flow of commerce.
    In this case, in Houston we were able to negotiate with the 
Port of Houston to use one berth, basically one berth that they 
had as a primary load-out without disrupting the commercial 
flow, so we were able to do that without actually issuing what 
we call a ``port planning order.'' That was modeled pretty much 
throughout the United States.
    Mr. Putnam. Does it concern you that in time of war the 
plans that are in place for a war or for a national emergency 
were not fully engaged, which begs the question of whether we 
have the right plans in place? And, second, that we were 
essentially responding to the war effort in a logistics 
capacity by doing what was most convenient for commercial 
shippers?
    Captain Schubert. No, that didn't concern me on either 
count. We weren't just doing--first of all, to answer the last 
part of your question, we weren't just concerned about 
commercial shippers, but that is the reason why, under the 
Defense Production Act, that civilian agencies have those roles 
of prioritizing and allocating resources. It is so that we 
don't disrupt.
    But in this case we had, I think, a very effective load-out 
scenario. We moved more cargo during that 6-month period than 
we did during the entire Korean War. It worked very well, very 
efficiently. The Government agencies that were involved in the 
Port Readiness Network worked very well together. We 
established communications. We did, during that engagement, 
establish secure communications with all the ports. We had a 
credentialling system that we stood up almost overnight. It 
worked very well, and I think we learned a lot of good lessons 
from that.
    Mr. Putnam. Let me come back to that. General, you 
mentioned that your committees, your Readiness Committees, have 
essentially shifted from being Readiness Committees to being 
Security Committees. Could you elaborate on the consequences of 
that shift?
    General Privratsky. I didn't mean to imply that we have 
shifted, but we are shifting. On September 11th the risks to 
our homeland were different than they are today, and when Port 
Readiness Committees met routinely, quarterly in most cases, at 
the 13 commercial strategic ports, they met to discuss the 
readiness of the port to deploy the forces. Less time was spent 
then discussing security implications because we were 
perceiving the environment differently than we do today.
    Now, when those Port Readiness Committees meet there is an 
open discussion of intelligence information. All those 
committees have met at those 13 commercial ports since 
February. The ones in California have met just this month. 
There is an open dialog sharing of intelligence information.
    Our ability to provide information to those committees is 
much better today than it was in September. As I mentioned in 
my written and oral testimony, we have a more robust 
intelligence capability in my command, and our links to other 
commands are better. That information throughout the Military 
Traffic Management Command is disseminated down to the level 
where they enter that Port Readiness Committee.
    Mr. Putnam. Thank you. My time has expired.
    The gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Admiral Pluta, before September 11th or immediately 
following September 11th the Coast Guard was very involved in 
protective activities, am I right?
    Admiral Pluta. Yes, sir.
    Mr. Tierney. When you undertook those activities, did you 
do so under some existing memorandum of agreement with various 
other agencies, or just a plan that the Coast Guard had 
designed on its own to spring into action?
    Admiral Pluta. I don't think I could point to a memorandum 
of understanding that caused us to do what we did on September 
11th, we just did what we always do--we respond. We are a 
response organization. We saw a need and we didn't know where 
the next threat was coming from, so we put everything we had to 
work guarding the ports of the United States of America, sir.
    Mr. Tierney. And since that day have you changed that 
posture at all? Are you still performing under that sort of 
independent mandate, or have you since then worked out 
memorandum of agreement or other arrangements with other people 
to divide up the responsibilities and address them?
    Admiral Pluta. There has been a lot more networking, sir, 
with regard to everything that we do in the ports, obviously. 
We have gone back to the traditional missions with the assets 
that we pulled out of service to go and defend the ports, and 
so that we could get back to the important drug interdiction, 
migrant interdiction, safety of life at sea, fisheries 
enforcement, those missions. But in the ports, themselves, we 
recognize that we couldn't do this job alone and we shouldn't 
do this job alone. It shouldn't be just borne by the Federal 
Government. It should be borne by all the agencies, as well as 
State and local, as well as the private sector. So we've 
outreached a lot, we've had a lot of public meetings, we've 
sent out guidance. We are working internationally to get a 
global solution to our problems. And, yes, sir, we are a 
networking organization because of how small we are, and we 
exercise that to the max.
    Mr. Tierney. Has there been any conversation with the Coast 
Guard and the Department of Defense with respect to plans 
announced by the Department of Defense to do a Northern 
American Command?
    Admiral Pluta. Yes, sir. We have been in at the ground 
floor on the development of NORTHCOM all along the way, and we 
intend to ensure that Coast Guard is strongly represented as a 
member of that staff, with your approval, with a flag officer 
as well as a robust staff to support that flag officer and the 
northern commander.
    Mr. Tierney. What do you know so far about the plans of how 
the Coast Guard's responsibilities and the Navy's 
responsibilities will play off one another as that develops?
    Admiral Pluta. If anything, the September 11th event has 
caused our relationship to even strengthen. We had a NAVGUARD 
Board to coordinate our issues before, and resources largely 
flowed from the Coast Guard to the Navy. But, due to the fact 
that we are the lead Federal agency for maritime security, the 
Navy has chopped vessels for our use to protect the ports of 
the United States and have worked ever more closely with us on 
sharing intelligence, doing analysis, and our day-to-day 
operational readiness.
    Mr. Tierney. And as far as you can tell, is that the 
direction that this NORTHCOM is heading in--that it will 
continue to be a cooperative relationship and that the Navy 
will share resources----
    Admiral Pluta. Yes, sir.
    Mr. Tierney [continuing]. As opposed to having any sort of 
disturbance as to who is going to control what?
    Admiral Pluta. Yes, sir. It has been a very cooperative 
effort and I think the NORTHCOM is going to be focused on the 
maritime defense as opposed to maritime security, the 
preventive part of it. But the Coast Guard is integral to both 
of those issues, so we have been welcomed. One of my capstone 
classmates is putting that together for the Department of 
Defense. Very close relationship, sir.
    Mr. Tierney. Thank you. I yield back the balance of my 
time.
    Mr. Putnam. Thank you, Mr. Tierney.
    We're going to finish out the first round with the other 
gentleman from Massachusetts, Mr. Lynch, and then have a second 
round for those who have additional questions.
    Mr. Lynch. Thank you, Mr. Chairman.
    Admiral, Commander, Captain, thank you very much for your 
courtesy in appearing before this committee and informing us.
    I want to say that I represent the Port of Boston, 
especially a significant portion of the maritime port. I share 
that honor with Congressman Capuano and also Mr. Tierney.
    I just wonder if, in speaking of these 14 ``strategic 
ports'' through which we move military personnel and material, 
are there any lessons that can be learned for the other? I'm 
hoping, by the way, that the Port of Boston is on this larger 
list of 55 ports. I don't know. I don't have that classified 
list yet, but I will have it soon. Are there lessons that we 
can learn, structurally or in terms of preparation, to address 
the concerns that you see in these ``strategic ports'' that 
would be useful in the larger grouping of 55 ports? Anyone?
    Admiral Pluta. Thank you, Mr. Lynch. I think the rest of 
the ports can learn very from those ports. Having been a 
chairman of a Port Readiness Committee and having had that 
history since the 1980's, where the Port Readiness Network 
matured, it helped us prosecute the Gulf War in all our ports 
because the MTMC commander, the Coast Guard Captain of the 
Port, the State Port of North Carolina in that case, we all 
knew each other, our people knew each other, we knew each 
other's facilities, and it was natural for us to flow into an 
accelerated mode.
    In the other ports there were no Port Readiness Committees, 
and so I think part of the pending legislation that the 
conferees are working on and maritime security is to have a 
legal requirement that there be Port Security Committees in 
those other ports to perform largely the same function with 
also some additional members, like from the intelligence 
community and the Federal and State and local law enforcement 
community--FBI, State police, those kind of folks--to make sure 
that threat information is fresh and new.
    So the lessons learned for me, sir, are that the Port 
Readiness Committee concept works and we ought to export that 
success to the other ports of the United States.
    Mr. Lynch. The other question I had is regarding 
containerized cargo. I know that a very small percentage of 
that is being inspected right now, and I know you spoke earlier 
of the efforts to move our borders out, so to speak, so that 
there is some type of screening process that might occur if we 
have some indication that there might be questionable persons 
or cargo on a particular ship. But are there any, I guess, 
systematized processes that you see being implemented in the 
near term that might address the problem that we have, for 
example, in the Port of Boston where we have, you know, 
shipping lines from China and from the Middle East and from 
Europe--well, the Mediterranean, let's say--coming on a weekly 
basis into the port of Boston?
    Captain Schubert. I would like to address this first, and 
if you want to add, Admiral--first of all, I wanted to mention 
it earlier with regards to the container movement of container 
cargo, that in this area there has been very good cooperation 
amongst all the Federal agencies to address this issue. In 
fact, as we speak right now there is what we refer to as the 
``inter-agency container working group'' working on it up at 
the Merchant Marine Academy up at King's Point from Monday to 
Wednesday to try to consolidate and come up with some 
additional action items to address this issue.
    Our main concern I think is, as you say, pushing the 
borders out is that we want to know--we want to have some form 
of pre-inspection of cargo and screening cargo before it is 
actually loaded on a ship that's coming to the United States. 
But, again, there is some specific recommendations from this 
container working group. The first report was last February, in 
that timeframe. Some of those initiatives have been 
implemented, and it is an example of very close cooperation 
amongst all the Federal agencies.
    Admiral Pluta. Mr. Lynch, just to inform the committee, 
there are several pilot projects going on under the umbrella of 
Operation Safe Commerce. One that has already been completed 
followed a containerized shipment of lights from a manufacturer 
in Slovakia through Germany to Canada and then down to New 
England. We are learning our lessons there.
    There are other pilot projects on the west coast. I know 
the Port of Seattle is forming some bilateral partnerships and 
pilot projects with Singapore and with China, several ports in 
China, and so we are learning how to do that, how to maintain 
the integrity of those pieces of cargo.
    Also, a lot of this has to do with information sharing--the 
required proper manifesting of information and getting it to 
the people who need it in a timely fashion, protecting the 
commercial interests but allowing the Government agencies to 
draw from it. So we put out a notice of proposed rulemaking on 
our 96-hour advanced notice of arrival requirements to require 
that electronic cargo manifest information be forwarded 
directly to U.S. Customs at least 96 hours before a vessel 
arrives here.
    So the coordination, the providing of that sort of an 
electronic data base and information sharing capability I think 
is key to our getting this, and supporting through R&D or 
Federal funds the kind of pilot projects where we can learn to 
do this properly.
    Thank you, sir.
    Mr. Lynch. Thank you. Admiral, just on that last point--and 
this is my last question--what type of penalty befalls a 
company--let's just say on your very point where the bill of 
lading has to say, you know, exactly what is in the container 
that is coming into the port. Let's just say that is not--that 
the bill of lading is not correct, that a shipper is actually 
putting things in a container that he has not declared on the 
invoice, and that there is potentially a breach of security. 
What happens to that shipper who is in violation?
    Admiral Pluta. Mr. Lynch, sir, we're working with the 
Department of Justice on how to best structure the legal 
framework for penalties, but at the very minimum if somebody 
fails to comply with the 96-hour advanced notice of arrival 
requirement they won't be permitted in port, and that's going 
to interrupt their supply chain, and that's going to slow down 
their business, and they're not going to put themselves in that 
position if they are a competent operator. So that's one 
measure, and, as I said, the Department of Justice is helping 
us to deal with that.
    If I might, may I transfer the floor to----
    Mr. Lynch. Sure.
    Captain Schubert. If we're talking about an issue of cargo 
description as manifested, it would refer to as a 
``misdescription of cargo,'' and that really falls within the 
realm of the Federal Maritime Commission.
    Now, if we're talking about misdeclaring cargo at 
customers, then I'm sure there are penalties there, but the--
for a misdescription of cargo, the Federal Maritime Commission 
does have pretty steep penalties for that.
    Mr. Lynch. It just seems to me that we are going to need 
the cooperation of foreign shippers to police their own cargo 
or their own containers before they come into this country in 
an effort to move the borders out.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, Mr. Lynch.
    Let me just ask a quick question to followup from Mr. Lynch 
before we yield to the chairman.
    In 1998, according to testimony that this subcommittee 
received last week, 1998 a private weapons collector imported 
not one but two scud missiles from Czechoslovakia into the Port 
of Long Beach. What was the penalty to the shipper for mis-
identifying, or how did we correctly identify that scud 
missiles were coming in and no one caught it?
    Admiral Pluta. I can't answer your question, Mr. Chairman. 
I was unaware of that event. It's a Customs declaration kind of 
an issue. I can't speak for them. I'm sorry, sir, but I can't 
answer.
    Mr. Putnam. Thank you.
    Mr. Chairman, you are recognized.
    Mr. Shays. Thank you, Mr. Chairman.
    I almost would be overwhelmed if I had to figure out how to 
protect our ports, in part because almost every military part, 
it strikes me, is a domestic port--I mean, has a non-military 
function, as well. Is that fairly accurate, Captain?
    Captain Schubert. Yes. I'd say that, from a percentage 
basis of cargo that's moving through our ports on a regular 
basis, it's a very small percentage. A very small percentage of 
our cargo would be DOD cargos, if that's what you're asking.
    Mr. Shays. When I was asking earlier about the whole issue 
of vulnerability and threat assessment, I'm unclear as to what 
agency is responsible for conducting seaport-specific terrorism 
vulnerability and threat assessment.
    Captain Schubert. I would view that--as I mentioned 
earlier, the Coast Guard has gone out to develop a very 
detailed, comprehensive port--we don't call it port 
vulnerability assessments--port security assessment on a way to 
do that on the 55 ports, and I believe Admiral Pluta could 
address that, but I believe the Coast Guard, as our primary 
agency for homeland security, is responsible for that.
    Admiral Pluta. Mr. Chairman, if I might add?
    Mr. Shays. Yes. Sure.
    Admiral Pluta. Thank you, Mr. Chairman. As I mentioned 
earlier, we have sought funds and received some to conduct 
vulnerability of port security assessments here at the--at 
first the most important ports in the United States, and 
eventually all of them. This would be a comprehensive 
assessment by a contractor with Coast Guard oversight to look 
at all aspects of vulnerability of the entire port, not just a 
single facility.
    I think, to contrast with what General Privratsky was 
talking about, he is mainly concerned, I believe, with the 
facility, itself, under MTMC and worrying about it from both 
the shore side and the water side. Our concern is the entire 
port. One facility may be very well protected and the one right 
next door not well protected. We want to uncover those kind of 
vulnerabilities and look at such things as where do they get 
their power from, how well is their information protected, and 
then how is access control provided, lighting, fencing, the 
whole nine yards.
    Mr. Shays. And I make an assumption that you have not had 
the resources to do it so we do not at this time really have an 
assessment of vulnerability and threat. I mean, we are doing it 
but we don't have it.
    Admiral Pluta. Yes, sir. We have five completed. We hope to 
do eight at least this year with the funds available to us.
    Mr. Shays. And how many are we talking about?
    Admiral Pluta. I'm sorry, sir?
    Mr. Shays. How many would we be talking about totally?
    Admiral Pluta. Fifty-five, sir.
    Mr. Shays. And so, General, would you kind of, based on 
what the admiral told me, put it in context with what you were 
telling me about?
    General Privratsky. The fifty-five, seventeen of those 
ports are strategic ports, and of those thirteen are 
commercial, and of those thirteen there have been risk 
assessments conducted on four of the commercial ports. Of the 
DOD facilities, there have been extensive risk assessments done 
on two, those at Sunny Point, North Carolina, and Concord, 
California.
    Mr. Shays. And are those ports--sorry for my ignorance--are 
those ports exclusive military, or are they ports that folks 
sail out of for pleasure and commercial ships come in?
    General Privratsky. Our port at Sunny Point, North 
Carolina, is a DOD installation. It is our primary port for 
shipping ammunition. We do have----
    Mr. Shays. These are weapons ports. I'm sorry, but what I'm 
asking is--the ports are fairly large, so do you have a part of 
a major harbor or----
    General Privratsky. These are exclusive use Department of 
Defense facilities. At Sunny Point I do have the capability and 
the approval authority to move commercial shipments through 
there, and I have executed that a half dozen times in the past 
year-and-a-half through an extensive coordination process.
    Mr. Shays. Let me just conclude by asking each of you to do 
a proper threat--to do the things that were mentioned by GAO, 
the comprehensive assessment of threat, vulnerability, and 
critical port infrastructure and functions, to do the proper 
overseeing, coordination, executing force protection, what type 
of dollars are we talking about?
    Admiral Pluta. Mr. Chairman, the assessments--average cost 
of a comprehensive assessment of an entire port area like I 
have been talking about is about $500,000, a half million 
dollars apiece to do that.
    Mr. Shays. And if you had all the money necessary, would 
you have the personnel to do it, or is there a time issue, as 
well? I mean, in other words, is there a limit to how quickly 
we can do this?
    Admiral Pluta. Mr. Chairman, I think there is--we could do 
it quicker than we have planned right now. We are using a 
contractor, and we are going to--the Coast Guard role and our 
other agencies that are helping us do oversight are going to 
just be overseeing the contractor's work. So it is a matter of 
how many people the contractor can get geared up to do the job. 
They have been working on first a model port assessment 
template that we can apply to every port, not that one size 
fits all, but we need to look at the same elements as we look 
at every port. So that work is nearly complete, and then they 
will be ready to roll it out and try it out on ports.
    We have learned what we've learned today through working 
with DTRA on threat reduction to defense ports, but it is--I 
think it is more resource constrained than time constrained, 
Mr. Chairman.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    Mr. Putnam. Mr. Chairman, thank you.
    At this time we recognize the distinguished chairman 
emeritus of the International Relations Committee, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I address this to the entire panel. I regret I had to go to 
another meeting and was detained from coming back on time. What 
is the role of the Merchant Marine in port security or security 
in high seas? Can I address that to the whole panel?
    Captain Schubert. Well, first of all, in my opinion, the 
safest way to move cargo is under--is on a U.S.-flagged vessel 
with U.S.-owned and U.S.-crewed crew on board the ship. That is 
the basis for the Cargo Preference Act of 1904 which mandates 
that all military cargo move on U.S.-flagged ships.
    But the bit for security, it is--I certainly feel better, 
you know--I gave some testimony a couple of weeks ago about 
some of the issues around what we call ``open registries, flag 
inconvenience.'' So we are quite concerned that some of these 
ships that are coming in and out of our ports, that we need to 
increase the knowledge and standardized way of credentialling 
worldwide so we know who is on those ships.
    Outside of that, we have the IMO efforts that the Coast 
Guard is engaged in, which I believe will designate a security 
officer aboard our ships.
    Did you want to add to that, Admiral?
    Admiral Pluta. If I may, Mr. Chairman Emeritus, thank you, 
sir. What the administrator said is true. We are depending upon 
the mariner to be our eyes and ears, as well as making sure 
that the vessel security plans that we will require both 
domestically and internationally for all flagged vessels, there 
be a vessel security officer on board designated to make sure 
that the security measures are implemented on that ship, and 
that could be things like making sure you know all of the crew 
members and passengers on board and whether or not they are 
clean, making sure that any of the cargo--all the cargo on 
board has been properly vetted, and those sorts of things. We 
also will require a company security officer to oversee their 
whole fleet of ships, likely to be a former Merchant Mariner.
    Mr. Gilman. Admiral Pluta, is there some special training 
for these security officers on each ship?
    Admiral Pluta. Yes, sir, there will be a list of required 
competencies that they have to have and required training that 
they have to have, and then they have to train the rest of the 
crew in what their responsibilities will be.
    Mr. Gilman. Who will be doing that training initially?
    Admiral Pluta. You want to answer that?
    Captain Schubert. We're still waiting for the pending 
legislation to port security to pass, and it will address that 
to some degree, but from the viewpoint of the Department, we 
believe that we have resources out there like the U.S. Merchant 
Marine Academy at King's Point and Global Maritime 
Transportation School at King's Point that can be used for 
that.
    Mr. Gilman. But they're not using them at the present time; 
is that correct?
    Captain Schubert. I could say not only the Merchant Marine 
Academy, but the State schools are implementing security 
courses at their schools as we speak, but, as I mentioned in my 
opening statement, the Global Maritime Transportation School at 
King's Point is currently training--actually, in August will be 
training from the State of Florida law enforcement officers 
from the State of Florida, and this will be, I think, the first 
real class dedicated exclusively to do that.
    Mr. Gilman. So right now there is no overall training in 
place; is that right?
    Captain Schubert. It's not--correct, sir. It's not in place 
yet because we were waiting for the final legislation to come 
out of conference to see how it will define those 
responsibilities.
    Mr. Gilman. I hope you are going to be able to expedite 
that. How do we currently monitor private boat owners from 
international ports like yachts, fishing vessels? How do we 
monitor all of that?
    Admiral Pluta. Mr. Chairman Emeritus, I don't think that we 
monitor. We monitor the vessels that do come into the United 
States, but, as far as the private vessels, I don't think there 
is--they're below the cutoff for our 96-hour advanced notice of 
arrival requirements. We hope to get all vessels under that 
same requirement so that we can see all foreign yachts and 
foreign fishing vessels and foreign other vessels coming into 
the United States, but currently we have no requirement for 
that, sir.
    Mr. Gilman. So right now, Admiral, they are under the radar 
screen, right? They're not up on the screen?
    Admiral Pluta. Yes, sir.
    Mr. Gilman. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, Mr. Chairman.
    We appreciate the distinguished panel's comments. There may 
be additional comments submitted for you to answer for the 
record. At this time we will excuse the first panel and seat 
the second panel.
    The subcommittee is pleased to welcome Mr. Raymond Decker, 
the director of Defense Capabilities and Management Team with 
the U.S. General Accounting Office, and Mr. Kenneth Goulden, 
Vice President of Maersk Sealand. Welcome to the subcommittee, 
gentlemen.
    As you know, this is a subcommittee that does swear in 
witnesses, so I would ask that you please stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that the witnesses 
responded in the affirmative.
    It is a pleasure to have you with us, and we will begin 
with Mr. Decker. You are recognized.

 STATEMENTS OF RAYMOND DECKER, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT TEAM, U.S. GENERAL ACCOUNTING OFFICE, 
  ACCOMPANIED BY JOE KIRSCHBAUM, SENIOR ANALYST; AND KENNETH 
            GOULDEN, VICE PRESIDENT, MAERSK SEALAND

    Mr. Decker. Thank you very much, Mr. Putnam, Chairman 
Shays, distinguished members of the subcommittee. I am pleased 
to be here today to participate in a hearing on homeland 
security, securing strategic ports with an emphasis on the 
security coordination measures through our military movements 
through these vital portals.
    As requested, my testimony will focus on the security 
environment at domestic strategic seaports used by the 
Department of Defense for military deployments and the 
Department's process for securing these military deployments 
through those ports. My comments are based on preliminary 
results of the work we are currently conducting on this issue 
for the subcommittee. We plan to provide the subcommittee with 
a report this fall.
    I have asked my senior analyst in charge responsible for 
this area, Mr. Joe Kirschbaum, to join me at the witness table.
    The October 12, 2000, attack on the U.S. destroyer ``U.S.S. 
Cole'' in the Port of Aden illustrated the danger of non-
traditional threats to U.S. ships in seaports. The September 
11th attacks heightened the need for a significant change in 
conventional anti-terrorism thinking. The new security 
environment assumes that all U.S. military assets here and 
abroad are vulnerable to attack and a domestic physical 
infrastructure such as our commercial seaports is recognized as 
highly vulnerable to potential terrorist attack. These seaports 
are vital to our national security, and during a major conflict 
95 percent of the Department of Defense's equipment and 
material needed for overseas military operations would pass 
through them.
    Uncertainties regarding the seaport security environment 
exist for several reasons. First, comprehensive assessments of 
threat, vulnerability, and critical port infrastructure and 
functions which we would call ``criticality'' have not been 
completed. These assessments underpin the risk management 
approach that I have previously described in past hearings 
before this subcommittee and the Senate Committee on 
Governmental Affairs.
    As you are aware, risk management is a balanced, 
systematic, and analytical approach to determine the likelihood 
that a threat could adversely affect individuals, physical 
assets, or functions, and then identify actions to reduce the 
risk, mitigate the severity of the consequence of the event, 
and reasonably manage uncertainty.
    Second, no effective process exists to receive, analyze, 
evaluate, and disseminate the spectrum of threat information at 
seaports. Most threat information at the ports is received 
informally through personal contacts with law enforcement 
individuals. No formal mechanism exists to ensure that all 
threats are factored into the risk-based decisionmaking process 
with actionable information transmitted in a timely manner to 
all relevant organizations.
    Recent efforts by the Coast Guard and other agencies at the 
ports are attempting to address many of these weaknesses, and 
you heard many of the witnesses in the previous panel discuss 
this. The Coast Guard has initiated vulnerability assessments 
of the port's infrastructure and is deploying additional teams 
dedicated to seaport authority functions. The first Marine 
safety and security team was deployed 3 weeks ago to Seattle 
and will provide SWAT-team-like support to investigate 
suspicious vessels before they enter U.S. ports.
    In 1999, the Coast Guard discussed in a strategic plan the 
concept of maritime domain awareness, which links information 
fusion, risk management principles, and decisionmaking process. 
With the support of the National Security Council, this concept 
is being validated at the Coast Guard's Intelligence 
Coordination Center in Suitland through real-world application.
    On the congressional front, proposed legislation, Senate 
Resolution 1214, the Port and Maritime Security Act of 2001, 
should assist those officials and organizations responsible for 
the safe and secure operation of our seaports to better focus 
resources and actions against future threats. Several key 
provisions of the legislation include: the establishment of a 
national level and port and local port security bodies to plan 
and oversee security measures, the conduct of port 
vulnerability assessments, and background checks for port 
workers and development of access controls to sensitive areas. 
There is much more in that resolution that will be very 
beneficial.
    The implementation of these provisions and others will help 
create an effective framework to better understand the threat 
environment and the importance of the continuous assessment of 
threat to support daily operations, as well as short-and long-
term planning. We believe the current enhanced security-related 
activities discussed earlier, coupled with the measures of S.R. 
1214, should continue to improve the security posture of our 
seaports.
    Now I would like to comment on Department of Defense's 
force protection process for deployments through domestic 
seaports. During the conduct of our work, we identified two 
significant weaknesses in the process. First, there is no 
Department of Defense focal point tasked to provide overall 
oversight, coordination, and execution of domestic force 
protection measures from fort-to-port military movements. Since 
a military movement of equipment or material normally involves 
the parent military unit, the Military Transportation 
Management Command, Port Readiness Committee, Military Sealift 
Command, and with each of these elements responsible for a 
different portion of the journey, there are varying degrees of 
force protection planning, execution, and risk management 
application.
    Complicating this issue further is the fact that non-
Government parties may be contracted to provide transport by 
road and rail. As a result, potential force protection gaps and 
weaknesses requiring attention and action outside the purview 
or awareness of any one element may exist.
    In contrast, once a military shipment reaches its overseas 
debarkation point, a military element at the Unified Command 
level is responsible for the overall force protection planning 
and execution for the safe off-load and transport to its final 
destination. This capability provides oversight of all phases 
of the movement, especially when non-U.S. entities are 
involved.
    Second, during the movement of military equipment or 
material by ship, the Department sometimes relinquishes control 
of these items to non-Department-of-Defense entities to include 
foreign-flagged ships crewed by non-U.S. citizens. Although 
this practice is consistent with current Department policies 
and procedures, it limits the Department's ability to provide 
security oversight while the equipment is in transit and 
potentially increases the risk involving these vital cargos.
    In summary, Mr. Chairman, the events of September 11th 
heightened the vulnerability of the U.S. homeland to non-
traditional attack, and the resulting new environment warrants 
that more attention be focused on vital military deployments 
through strategic commercial seaports.
    A risk management approach will wisely guide both military 
and civilian leaders and managers as they make important 
decisions affecting planning and actions to better prepare 
against potential attacks and mitigate the consequences of 
adverse events. However, the current uncertainties in the 
security environment at our domestic ports and weaknesses in 
the Department of Defense's force protection approach increase 
the potential risk to military deployments that could adversely 
affect U.S. overseas operations.
    Mr. Chairman, this concludes my statement. We would be 
pleased to respond to any questions you, the committee, may 
have.
    Mr. Shays [resuming Chair]. Thank you, Mr. Decker. I 
appreciate all the work you do before this committee.
    [The prepared statement of Mr. Decker follows:]
    [GRAPHIC] [TIFF OMITTED] T7388.027
    
    [GRAPHIC] [TIFF OMITTED] T7388.028
    
    [GRAPHIC] [TIFF OMITTED] T7388.029
    
    [GRAPHIC] [TIFF OMITTED] T7388.030
    
    [GRAPHIC] [TIFF OMITTED] T7388.031
    
    [GRAPHIC] [TIFF OMITTED] T7388.032
    
    [GRAPHIC] [TIFF OMITTED] T7388.033
    
    [GRAPHIC] [TIFF OMITTED] T7388.034
    
    [GRAPHIC] [TIFF OMITTED] T7388.035
    
    [GRAPHIC] [TIFF OMITTED] T7388.036
    
    [GRAPHIC] [TIFF OMITTED] T7388.037
    
    [GRAPHIC] [TIFF OMITTED] T7388.038
    
    [GRAPHIC] [TIFF OMITTED] T7388.039
    
    [GRAPHIC] [TIFF OMITTED] T7388.040
    
    Mr. Shays. Mr. Goulden at Maersk Sealand.
    Mr. Goulden. Mr. Chairman, members of the subcommittee, it 
is a pleasure for me to appear here before you today to speak 
about security coordination measures at strategic seaports 
during mobilization of military cargo. Maersk shares your 
commitment to ensuring that security measures are in place to 
protect military personnel and cargo during mobilizations.
    By way of background, Maersk is one of the largest 
providers of global intermodal transportation services in the 
world. We have built and operate an integrated transportation 
network covering 100 countries. Our network includes more than 
250 ocean-going vessels, numerous terminals on five different 
continents, including 12 ocean terminals here in the United 
States, over 800,000 shipping containers, business 
relationships with trucking companies and railroads around the 
world, and sophisticated information management systems to 
track each shipment from initial order to final delivery.
    One of Maersk's most important customers is the U.S. 
Government and the Department of Defense, in particular. Two of 
our main business areas with the Department of Defense are, 
one, ship ownership and management services, and, two, global 
intermodal transportation services.
    With respect to ship ownership management services, Maersk 
owns and/or operates a sizable fleet of ships exclusively for 
the U.S. military. The fleet includes two ammunition ships, 
eight large medium-speed roll-on/roll-off ships known as LMSRs, 
five maritime prepositioning ships, and twelve surveillance 
ships. These ships typically call at seaports controlled by the 
U.S. military.
    Maersk also provides the military with global intermodal 
transportation services using our commercial intermodal 
network. Currently Maersk transports approximately 30,000 40-
foot equivalent containers each year for the Department of 
Defense.
    In addition to providing peacetime support, Maersk supports 
the military mobilization requirements through its 
participation in the maritime security program and the 
voluntary intermodal sealift administration known as VISA. 
Under these programs, Maersk has committed to provide the U.S. 
military with more intermodal and vessel capacity capabilities 
during a mobilization than any other carrier in the world. This 
commitment is memorialized in pre-negotiated contracts to 
facilitate a quick and seamless transition from peacetime to 
contingency operations.
    Earlier, General Privratsky provided the subcommittee with 
testimony that focused primarily on security of military 
organic transportation networks. The military also relies on 
commercial intermodal networks and assets. The focus of my 
testimony is the security of commercial intermodal networks 
during both peacetime and military mobilizations.
    Mobilizations and major deployments will be accomplished 
under the VISA program. One important component of the VISA 
program is the Joint Planning and Advisory Group known as JPAG. 
The JPAG provides a forum for the military and VISA carriers to 
exchange information, both classified and unclassified, and 
coordinate actions to develop concepts of operations. Through 
pre-negotiated contracts, the JPAG will have a number of tools 
at its disposal and can incorporate these into CONOPS to 
protect military cargo. The security measures included in the 
CONOPS will be in addition to the many security measures that 
Maersk has in place to protect its commercial intermodal 
network and the cargo that moves through it.
    Since September 11th, Maersk has hardened its existing 
security systems and procedures. Maersk also was one of the 
first carriers to participate in the voluntary U.S. Customs 
trade partnership against terrorism initiative known as C-TPAT. 
As part of that initiative, Maersk is conducting global 
security assessment and gap analysis, which should be completed 
within the next 30 days. Maersk will followup that assessment 
by implementing appropriate measures to address any identified 
security gap or weakness.
    We have made good progress in improving security, but still 
have a big job in front of us. Without a doubt, it is a complex 
and multi-faceted endeavor that requires the leadership and 
coordination of the Federal Government.
    The Federal Government must establish and enforce 
standardized security requirements for each participant and 
each node in the intermodal transportation process. Without 
mandatory security standards, the competitive environment makes 
it commercially impossible for an individual company on its own 
initiative to impose additional security requirements on 
customers and suppliers. When establishing security 
requirements, the Federal Government must be mindful of the 
impact that such requirements could have on the network 
performance and strike an appropriate balance. We must be 
careful that security measures do not cause bottlenecks that 
reduce network velocity and ultimately disrupt military 
mobilizations and international commerce.
    In closing, Maersk believes that the proposed legislation, 
if enacted and properly implemented, would result in better 
management and coordination of security efforts. In particular, 
Maersk supports standardized cargo documentation requirements; 
national systems for identification cards and personnel 
credentialling; uniform standards for container security; 
coordinated security assistance, plans, and response teams. 
Improving the security of the intermodal transportation will 
inevitably have a positive impact on the military cargo moving 
through commercial networks during a mobilization; therefore, 
Maersk believes that the proposed legislation is an important 
step in the right direction.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to testify before you today.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Goulden follows:]
    [GRAPHIC] [TIFF OMITTED] T7388.041
    
    [GRAPHIC] [TIFF OMITTED] T7388.042
    
    [GRAPHIC] [TIFF OMITTED] T7388.043
    
    [GRAPHIC] [TIFF OMITTED] T7388.044
    
    [GRAPHIC] [TIFF OMITTED] T7388.045
    
    Mr. Shays. Let me ask what may appear to be somewhat of a 
facetious question, but it is not intended that way. I'd like 
to just see where it leads us.
    Tell me something hopeful. Tell me something encouraging 
about our ability to protect our strategic resources at our 
seaports. I'll throw it open to you first, Mr. Decker, and then 
to Mr. Goulden.
    Mr. Decker. Mr. Chairman, could I ask for a rephrasing of 
the question, please?
    Mr. Shays. Yes.
    Mr. Decker. Thank you.
    Mr. Shays. I'll preface it by saying as I listened to the 
testimony I feel like--and as I think of what I've seen in my 
work chairing this committee, I don't know a lot that I can 
feel encouraged about in our capabilities to protect vital 
resources in our ports. Given, in particular, that a lot of the 
ports have dual use--they really have three. They have 
military--our harbors do. They have military, they have 
commercial, and they have recreational uses. I don't feel that 
we have an infrastructure in place that is particularly good at 
protecting our facilities. I don't feel we have the manpower. I 
don't feel we have the coordination yet. I don't think we've 
done our risk assessment. I don't think that we've developed a 
strategy. So I started to get a little depressed about it.
    Tell me some hopeful things that I can say, ``Oh, gosh, 
this is better than I think.''
    Mr. Decker. Sir, I think one of the most hopeful aspects, 
besides the good work that I think people are trying to do at 
the different executive agencies at different levels, are the 
provisions in the Senate Resolution 1214. Really, that 
legislation, with its counterpart House resolution, which is an 
amendment to that resolution, really provides for the first 
time a tremendously top-down-to-the-bottom-level framework that 
is going to help the national leadership as well as the local 
officers that are responsible for working port security issues 
with tools that will allow them to move forward. This will take 
some time, though, for this to evolve.
    If you look at a couple of the major points that were 
brought up earlier, some of the issues that are being worked 
on, port vulnerability assessments, this legislation prescribes 
that there has to be some standards applied and there has to be 
some consistency with how they are done across the board. Right 
now that's not the case.
    Department of Defense has had a very long program of force 
protection in which they have come up with a good process for 
vulnerability assessments, and I was encouraged to hear that 
DTRA is going to be involved working with the Coast Guard, with 
the Maritime Administration, and others--MTMC--to work on that. 
So legislation is part one.
    Part two is I think that there are a lot of response-type 
actions that are positive. The one I mentioned about the Coast 
Guard with their SWAT-like teams that go out and look at 
suspicious vessels before they get into a port, that's 
positive, the studies that are ongoing looking at sea container 
security issues. But there is a lot a question about are we 
better today than we were a year ago, you know, independent of 
September 11th, and I'm not really sure I can answer that, with 
the work that we've done. I just sort of share your concerns.
    Mr. Goulden. Your concerns are well placed, but, having 
said that--and I think everyone recognizes that--the amount of 
focus today as opposed to prior to September 11th is 
incredible. You can't go anywhere in our business and not have 
security be a mainstay portion of it. There are pilots in 
place, the Customs C-TPAT partnering agreement that I talked 
about, security.
    Mr. Shays. You mean pilot programs?
    Mr. Goulden. Pilot programs in place like the C-TPAT.
    Mr. Shays. Because you do have pilots at your harbors.
    Mr. Goulden. At the ports we have pilots. Yes, we do. You 
got it. Pilot programs. You got it. Security seals, our other 
pilot programs that are in place. There have been a few more 
mentioned here.
    The industry is thirsty for answers on how to improve the 
system and how do they participate in the system. There is a 
growing recognition that cargo plays an important part, and it 
is the whole intermodal network, not just one node.
    Granted, the port is where everything comes in and out of, 
but knowledge of things away from there which are much more 
difficult to assess are now being looked at as the long-term 
solution to offer some protection to the ports.
    So I think there is a lot to be hopeful for. We certainly 
aren't there yet.
    Mr. Shays. Your company has contracts, as you pointed out, 
obviously, with the military to ship. Are all your ships 
dedicated to military transportation, or is it--do you 
sometimes--do you have some ships just totally dedicated and 
other ships that are used where needed?
    Mr. Goulden. Correct. We have a group of vessels where we 
either own those vessels and charter them and manage them for 
the U.S. Government or we manage U.S. Government vessels for 
them, and those are totally dedicated to the Department of 
Defense and the work that the Department of Defense does.
    Mr. Shays. So any transportation of military hardware is on 
a dedicated ship?
    Mr. Goulden. There is a set that's done that way. We also 
have 23 vessels that we operate in our commercial fleet, so of 
250 worldwide vessels, 23 of those would be in commercial 
operation off of U.S. shores integrated into that commercial 
fleet. By and large, the majority of the cargo on those ships 
is commercial cargo moving in and out of foreign commerce of 
the United States through U.S. ports.
    We also move about 30,000 40-foot equivalents for the U.S. 
military in peacetime in foreign commerce on those same U.S.-
flagged vessels, which are U.S. flagged, crewed by U.S. crew 
members and U.S. citizens, and operated by us in our fleets. 
They are also documented U.S.-flagged vessels.
    Mr. Shays. Thank you.
    Mr. Decker, General Privratsky's testimony stated that the 
Military Traffic Management Command coordinates with other 
organizations and shares information. Your study and testimony 
implies there is need for significant improvement, so I'd like 
to ask how should the MTMC improve coordination of force 
protection measures.
    Mr. Decker. Mr. Chairman, if you will allow me, I'd like to 
have my colleague, Mr. Kirschbaum----
    Mr. Shays. I'd be delighted to have him respond.
    Mr. Decker [continuing]. Provide a comment on that, if you 
will.
    Mr. Shays. The question is, is he delighted to respond? 
[Laughter.]
    Do you want me to repeat the question?
    Mr. Kirschbaum. No, sir, Mr. Chairman. Thank you. By and 
large, at the ports we visited--the point the general made 
about the coordination mechanisms at the Port Readiness 
Committees and the role that his command plays, from our view 
is fairly systematic. They do have processes in place and they 
follow them fairly closely and they are most assuredly 
dedicated individuals.
    Where the variance comes in is in the stages of the 
deployment process from the fort to the port, as Mr. Decker 
alluded to earlier, where there are several phases at which 
force protection concerns are critical, but the actual 
transport is changed. It is changed hands from the military 
installation, from road or rail movement, and then at some 
point at the port when the military equipment changes over. At 
the port, itself, that Port Readiness Committee structure is in 
place where you have MTMC coordinating with the Coast Guard, 
with local military commanders. That same level of planning, of 
assessments, and of coordinated force protection measures 
cannot be traced to the same level at all stages of that 
deployment. It's when you step back to that overall view you 
see that there's a potential that the same level of planning 
has not been done throughout the entire process. That's the 
difference.
    Mr. Shays. Thank you.
    Mr. Goulden, when military hardware, equipment, is loaded 
on non-DOD ships--in other words, on one of your ships--what 
kind of security arrangements are made? Do you carry any 
military flag? Do you have military personnel on board? Are you 
treated like a commercial ship or like a military ship?
    Mr. Goulden. We're treated as a commercial ship. The cargo 
that comes on into the port and loaded for DOD onto our vessels 
would be treated as the same unless the U.S. military asks for 
special treatment. Our contracts enable them to say that they 
could have a super cargo, that they would want someone to watch 
that cargo all the way through from loading to destination and 
then hand it off at the other end. That assessment of their 
cargo and how they want it handled is done by theirs, and our 
contractual relationship enables us to implement the terms that 
they would like.
    Mr. Shays. Thank you. Is there any question that any of the 
three of you feel that we need to put on the record and want to 
ask yourself the question and answer it? Is there a question 
that you think we need to put on the record?
    Mr. Goulden. Not from me.
    Mr. Shays. Mr. Decker.
    Mr. Decker. Mr. Chairman, I would like to just pursue that 
question you asked.
    Mr. Shays. Sure.
    Mr. Decker. And with the help of our distinguished 
colleague, perhaps illuminate more on the issue.
    Mr. Shays. Sure.
    Mr. Decker. A concern that we raised had to do with the 
military equipment being transported on ships of foreign flag 
with crews from other countries.
    Mr. Shays. Let me be clear. So these are--your ships would 
not necessarily be U.S.-flagged ships?
    Mr. Goulden. We would move military cargo that was booked 
with us on our U.S.-flagged vessels. In the event no U.S.-
flagged vessel was available, a determination of non-
availability would be made, then the military has the right to 
authorize the cargo to be booked on one of our foreign-flagged 
vessels.
    Mr. Shays. Sorry, Mr. Decker. I just wanted to ask him.
    Mr. Decker. No. In fact, that's exactly where I was headed 
with the question. When we did some of our site work, we looked 
at the ship manifests, the cargo on nine ships of different 
flags, and also the crew manifest, the crew list. And what we 
noted--and these were in support of military operations 
overseas, not a mobilization but ongoing operations--the ships, 
by and large, except for one, was of a foreign--all foreign 
flagged. Now, some is I think flag of convenience for other 
reasons, but several were owned by foreign countries and 
therefore--and then flagged in different countries. Crews were 
totally from other countries. Yet, on these ships during the 
missions we looked at you had Bradley fighting vehicles, 155 
millimeter howitzers, Black Hawk helicopters, machine guns, 
night vision goggles, nuclear biological chemical defense 
equipment, and it just goes on--communications equipment.
    Mr. Shays. So you would draw from that what?
    Mr. Decker. Well, a concern that perhaps--and maybe the 
risk is acceptable, but do we know everything we need to about 
the ships and the crews that are not under U.S. flag or U.S. 
control, that the risk is acceptable when we move high-value, 
very sensitive, important equipment.
    I thought my colleague would be able to, from his 
perspective, knowing the business, might be able to share some 
insight on that.
    Mr. Shays. Would you care to respond to that?
    Mr. Goulden. I'm not familiar with the statistics, so I 
don't know if these were spot charters or liner operations or 
whatever, but I do know that the Military Sealift Command 
routinely charters vessels that are foreign flagged once 
they've made a determination that there are no U.S.-flagged 
vessels available.
    Mr. Shays. And do they do that through you or do they do it 
independently?
    Mr. Goulden. No, they do it independently. They do a 
request for bid and people put in proposals.
    Mr. Shays. And how much of the non-military-transported 
goods do you think your company does? Do you do 10 percent of 
it, 50 percent of it?
    Mr. Goulden. In what we would call ``liner traffic,'' cargo 
that moves within a specific contract called the ``universal 
service contract 03,'' which is managed by the Military Traffic 
Management Command, on a global basis in foreign commerce we 
probably handle somewhere between 45 and 50 percent of the 
cargo.
    Mr. Shays. You had a lot of explanation before you got to 
that number.
    Mr. Goulden. Well, you don't want to confuse it----
    Mr. Shays. Yes, I understand.
    Mr. Goulden [continuing]. With domestic cargo and other 
cargos.
    Mr. Shays. So you do almost half?
    Mr. Goulden. Yes, approximately half. Correct.
    Mr. Shays. So can I infer that the other half is going on 
non-U.S.-flagged ships?
    Mr. Goulden. No, you cannot.
    Mr. Shays. OK.
    Mr. Goulden. The other half would go on competitors that 
are U.S. flag operators with U.S. citizen crews, similar 
companies just like my own--American President Lines, Lykes 
Lines, Farrell, Central Gulf Waterman--make sure I get them all 
in there, because they won't be happy with me if I don't. But 
they all participate in the same contract and would handle the 
rest of the cargo.
    Mr. Shays. Gentlemen, is there anything else we need to put 
on the record?
    [No response.]
    Mr. Shays. Then I'd like to thank you. I appreciate your 
testimony. I appreciate your putting this on the record. I 
think this is clearly a work in process and a new area for this 
committee, so we will be getting into it in a lot more depth.
    Thank you.
    This hearing is adjourned.
    Mr. Decker. Thank you.
    Mr. Goulden. Thank you, sir.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
